CASE NO. 20-815
IN THE SUPREME COURT OF THE UNITED STATES

TIMOTHY KING, MARIAN ELLEN SHERIDAN, JOHN EARL HAGGARD,
CHARLES JAMES RITCHARD, JAMES DAVID HOOPER and DAREN WADE
RUBINGH,
Plaintiffs/Petitioners,
v.
GRETCHEN WHITMER, in her official capacity as Governor of the State of
Michigan, JOCELYN BENSON, in her official capacity as Michigan Secretary of
State and the Michigan
BOARD OF STATE CANVASSERS
Defendants/Respondents,
and
CITY OF DETROIT, DEMOCRATIC NATIONAL COMMITTEE and MICHIGAN
DEMOCRATIC PARTY, and ROBERT DAVIS,
Intervenor-Defendants/Respondents.

PROOF OF SERVICE
STATE OF MICHIGAN)
)ss
COUNTY OF WAYNE )
STEFANIE LAMBERT JUNTTILA, affirms, deposes and states that on the
15th day of December, 2020, she did cause to be served the following:

1. Notice of Supplemental Authority

2. Certificate of Conformity;
3. Proof of Service
UPON:
ERIK A. GRILL
HEATHER S. MEINGAST
Michigan Department of Attorney General
Civil Litigation, Employment & Elections Division
PO Box 30736
Lansing, MI 48909
517-335-7659
Email: grille@michigan.gov
DARRYL BRESSACK
DAVID H. FINK and NATHAN J. FINK
Attorneys as Law
38500 Woodward Avenue; Suite 350
Bloomfield Hills, MI 48304
248-971-2500
Email: dbressack@finkbressack.com
ANDREW A. PATERSON, JR.
Attorney at Law
46350 Grand River Ave.
Novi, MI 48374
248 568-9712
Email: aap43@hotmail.com
MARY ELLEN GUREWITZ
Attorney at Law
Cummings & Cummings Law PLLC
423 North Main Street; Suite 200
Royal Oak, MI 48067
313-204-6979
Email: megurewitz@gmail.com

SCOTT R. ELDRIDGE
Attorney at Law
Miller, Canfield,
One Michigan Avenue

Suite 900
Lansing, MI 48933-1609
517-483-4918
Email: eldridge@millercanfield.com
DANIEL M. SHARE
EUGENE DRIKER
STEPHEN E. GLAZEK
Attorney at Law
Barris, Sott, Denn & Driker, PLLC
333 West Fort Street; 12th Floor
Detroit, MI 48226
313-965-9725
Email: dshare@bsdd.com
EZRA D. ROSENBERG
Lawyers' Committee for Civil Rights Under Law
1500 K Street, NW; Suite 900
Washington, DC 20005
202-662-8345
Email: erosenberg@lawyerscommittee.org
JON GREENBAUM
Lawyers' Committee for Civil Rights Under Law
District Of Columbia
1500 K Street NW
Ste 9th Floor
Washington, DC 20005
202-662-8315
Email: jgreenbaum@lawyerscommittee.org
By email and by placing said copies in a properly addressed envelope with sufficient
postage fully prepaid, and placing in a U.S. Mail Receptacle.
FURTHER AFFIANT SAYETH NOT.
/s/ Stefanie Lambert Junttila
STEFANIE LAMBERT JUNTTILA

